WAIVER

SUPREME COURT OF THE UNITED STATES

Supreme Court Case No.21-5026

 

Kevin L. Martin y, Ashlynn Ledford

Petitioner) (Respondent)

 

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Conrt.

Please check one of the following boxes:
@ Please enter my appearance as Counsel of Record for all respondents.

(There are multiple respondents, and I do not represent all respondents. Please enter my
appearance 2s Counsel of Record for the following respondent(s):

 

 

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
your name has changed since your admission):

siqnatire Attox CY Dole fey
vate: lugust Lo)

(ype or print) Name Aaron T. Craft
Our OM. Mn, LD Miss

Firm_Office of the Attorney General

Address _Indiana Government Center South, 302 W. Washington Street, Fifth Floor
City & State Indianapolis, IN Zip 46204
Phone_317-232-4774

 

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Kevin L. Martin DOC #169789
Wabash Valley Correctional Facility, PO Box 1111
Carlisle, IN 47838-1111
